HHS/OIG-Audit--"Review of the Indian Health Service's Billings and Collections
from Private Health Insurance Companies, (A-06-93-00080)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Indian Health Service's Billings and Collections from Private
Health Insurance Companies," (A-06-93-00080)
June 22, 1995
Complete
Text of Report is available in PDF format (2.32 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the Indian Health Service (IHS) had not established
the controls necessary to ensure that amounts billed to private health insurance
companies for medical services were accurate and covered all allowable services.
As a result, we estimate that IHS underbilled private insurers by $7.3 million
for the 3-month period ending March 31, 1993. In addition, the IHS did not contact
private health insurance companies or otherwise follow up on an estimated $1.2
million of unpaid claims. To maximize collections, we recommended that the IHS
establish the necessary internal controls, assign adequate resources to its business
offices, provide additional training to business office staff to ensure that claims
for all covered services are filed and accurate, and implement complete and timely
follow-up procedures. The Public Health Service concurred with our findings and
recommendations.